No. 19-924
IN THE

~upreme Q:Court of tbe Wniteb ~tates
STATE OF INDIANA,

Petitioner,

V.

ERNESTO RUIZ,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Brief in Opposition in Indiana v. Ruiz, No. 19-924,
was served via electronic mail on all parties required:
Thomas M. Fisher
SOLICITOR GENERAL
OFFICE OF THE INDIANA ATTORNEY GENERAL

302 W. Washington St.
IGC South, Fifth Floor
Indianapolis, IN 46204
(317) 232-6255
tom.fisher@atg.in.gov

Counsel for Petitioner
I declare under penalty of perjury that the foregoing is true and correct.

Date: May 18, 2020

